<html>
<title> - SOLUTIONS TO STRENGTHEN U.S. PUBLIC SAFETY COMMUNICATIONS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


       SOLUTIONS TO STRENGTHEN U.S. PUBLIC SAFETY COMMUNICATIONS

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 26, 2018

                               __________

                           Serial No. 115-168
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-633                      WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9feff0dffceaecebf7faf3efb1fcf0f2b1">[email&#160;protected]</a>                              
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
MICHAEL C. BURGESS, Texas            ELIOT L. ENGEL, New York
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
STEVE SCALISE, Louisiana             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
CATHY McMORRIS RODGERS, Washington   JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Ohio                   YVETTE D. CLARKE, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
SUSAN W. BROOKS, Indiana                 Massachusetts
MARKWAYNE MULLIN, Oklahoma           TONY CARDENAS, California
RICHARD HUDSON, North Carolina       RAUL RUIZ, California
CHRIS COLLINS, New York              SCOTT H. PETERS, California
KEVIN CRAMER, North Dakota           DEBBIE DINGELL, Michigan
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia
JEFF DUNCAN, South Carolina

             Subcommittee on Communications and Technology

                      MARSHA BLACKBURN, Tennessee
                                 Chairman
LEONARD LANCE, New Jersey            MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               PETER WELCH, Vermont
STEVE SCALISE, Louisiana             YVETTE D. CLARKE, New York
ROBERT E. LATTA, Ohio                DAVID LOEBSACK, Iowa
BRETT GUTHRIE, Kentucky              RAUL RUIZ, California
PETE OLSON, Texas                    DEBBIE DINGELL, Michigan
ADAM KINZINGER, Illinois             BOBBY L. RUSH, Illinois
GUS M. BILIRAKIS, Florida            ANNA G. ESHOO, California
BILL JOHNSON, Ohio                   ELIOT L. ENGEL, New York
BILLY LONG, Missouri                 G.K. BUTTERFIELD, North Carolina
BILL FLORES, Texas                   DORIS O. MATSUI, California
SUSAN W. BROOKS, Tennessee           JERRY McNERNEY, California
CHRIS COLLINS, New York              FRANK PALLONE, Jr., New Jersey (ex 
KEVIN CRAMER, North Dakota               officio)
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
GREG WALDEN, Oregon (ex officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Leonard Lance, a Representative in Congress from the State 
  of New Jersey, opening statement...............................     1
    Prepared statement...........................................     3
Hon. Michael F. Doyle, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     4
    Prepared statement...........................................     6
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     7
    Prepared statement...........................................     8
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     9
    Prepared statement...........................................    11
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, prepared statement..............................    56

                               Witnesses

Eddie Reyes, Director, Public Safety Communications, Prince 
  William County Government......................................    12
    Prepared statement...........................................    14
James Curry, Communications Division Head, Hunterdon County, New 
  Jersey Department of Public Safety.............................    27
    Prepared statement...........................................    29
Paul Starks, Director, Public Information Office, Montgomery 
  County, Maryland Police Department.............................    33
    Prepared statement...........................................    35

                           Submitted Material

Statement of The Board of Chosen Freeholders, County of 
  Hunterdon, State of New Jersey.................................    57
Article entitled, ``N.J. raided your tax money intended for 
  critical 911 upgrades. `Quit it!` lawmaker says,'' NJ.com, 
  August 3, 2018.................................................    59
Article entitled, ``Lost in the Storm,'' The New York Times, 
  August 30, 2018................................................    64

 
       SOLUTIONS TO STRENGTHEN U.S. PUBLIC SAFETY COMMUNICATIONS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 26, 2018

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:30 a.m., in 
room 2322 Rayburn House Office Building, Hon. Leonard Lance 
(vice chairman of the subcommittee) presiding.
    Members present: Representatives Lance, Shimkus, Guthrie, 
Olson, Bilirakis, Johnson, Long, Flores, Brooks, Walters, 
Costello, Walden (ex officio), Doyle, Welch, Clarke, Ruiz, 
Engel, McNerney, and Pallone (ex officio).
    Staff present: Jon Adame, Policy Coordinator, 
Communications and Technology; Mike Bloomquist, Deputy Staff 
Director; Samantha Bopp, Staff Assistant; Robin Colwell, Chief 
Counsel, Communications and Technology; Kristine Fargotstein, 
Detailee, Communications and Technology; Sean Farrell, 
Professional Staff Member, Communications and Technology; Elena 
Hernandez, Press Secretary; Tim Kurth, Deputy Chief Counsel, 
Communications and Technology; Lauren McCarty, Counsel, 
Communications and Technology; Austin Stonebraker, Press 
Assistant; Evan Viau, Legislative Clerk, Communications and 
Technology; Hamlin Wade, Special Advisor, External Affairs; 
Jeff Carroll, Minority Staff Director; Jennifer Epperson, 
Minority FCC Detailee; Alex Hoehn-Saric, Minority Chief 
Counsel, Communications and Technology; Jerry Leverich, 
Minority Counsel; Jourdan Lewis, Minority Staff Assistant; Dan 
Miller, Minority Policy Analyst; and C.J. Young, Minority Press 
Secretary.

 OPENING STATEMENT OF HON. LEONARD LANCE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Lance [presiding]. Good morning, ladies and gentlemen. 
The subcommittee will come to order. I am Leonard Lance, the 
vice chair of the subcommittee and I have the honor of chairing 
the subcommittee today. The Subcommittee on Communications and 
Technology will now come to order. I thank our witnesses for 
being here. I now recognize myself for 5 minutes for an opening 
statement.
    Since the inception of 9-1-1 as the nationwide emergency 
telephone number in 1968, 9-1-1 call centers around the country 
have saved countless lives by giving the public a quick and 
easy way to request assistance in times of emergency. 
Technological advances over the years such as geolocation have 
opened up opportunities to improve upon the system, allowing 
law enforcement officers to receive the approximate location of 
where a call has originated.
    In order to keep up with the times, many states have 
established a fee or tax to upgrade and maintain their 9-1-1 
systems. These funds are especially crucial as we look to Next 
Gen 9-1-1 to update significantly the capabilities of our 
emergency communications. Innovations such as text-to-9-1-1 and 
the ability for citizens to send law enforcement officials 
real-time video during an emergency have the potential to 
revolutionize our emergency communications and save even more 
lives.
    Under the New and Emerging Technologies 911 Improvement Act 
of 2008, the Federal Communications Commission is required to 
submit a report to Congress on state collection and 
distribution of 9-1-1 and enhanced 9-1-1 fees and charges. 
These reports have shed light on a handful of states that have 
been raiding these 9-1-1 fees and diverting the funds for 
unrelated purposes.
    This unacceptable practice leaves counties and localities 
on the hook for maintaining and upgrading their systems, and 
this of course endangers public safety. Since 2004, New Jersey, 
where I live, has collected a 90 cent tax on consumers' monthly 
telephone and cell phone bills for 9-1-1 improvements. However, 
New Jersey has become the worst 9-1-1 fee diverter in the 
country, diverting over one billion dollars to non-9-1-1 
related purposes.
    Quite simply, this is unacceptable. Our constituents need 
to know that in an emergency their 9-1-1 call is going to go 
through. Lawmakers in state capitals including Trenton and in 
several other state capitals around the country have raided the 
funds set aside to improve the 9-1-1 system and left the 
account penniless, leaving public safety threatened and local 
taxpayers on the hook as I have said.
    I opposed the original legislation in New Jersey because it 
opened the door to the diversion as we are seeing today and 
this has been regardless of which party has controlled the 
governorship in the state I represent. Now, New Jersey 
lawmakers are considering an increase on the tax to fund Next 
Gen 9-1-1. Instead of further taxing New Jerseyans, Trenton 
should first stop diverting any existing fees from their 
intended use.
    I am pleased to welcome Jim Curry to our panel today. Mr. 
Curry is the Division of Communications Director for Hunterdon 
County's Department of Public Safety and Health Services. 
Hunterdon County is one of 21 counties in New Jersey, and I 
personally live in Hunterdon County.
    Last month, Mr. Curry and the rest of the staff at the 9-1-
1 Communications Center were kind enough to give me a tour of 
the facility and we were joined by Commissioner Mike O'Rielly 
of the Federal Communications Commission. Commissioner O'Rielly 
has been a leader in the effort to stop the states from 
diverting and certainly I think we give him great credit in 
that regard. The work that is being done is truly remarkable 
and I was extremely impressed with the operation as it was 
ongoing.
    Despite receiving little to no funds from the state 9-1-1 
fee fund, Hunterdon County has managed to maintain a state-of-
the-art system. However, because the state has been diverting 
the fees in such a dramatic amount, counties in New Jersey are 
left to their own devices. These funds generally come from 
residents in property taxes which are already among the highest 
in the Nation.
    That is why I have joined Congressman Collins and 
Congresswoman Eshoo in introducing the 9-1-1 Fee Integrity Act 
which would direct the FCC to establish legitimate uses for 9-
1-1 fees to be directed. And obviously this is bipartisan in 
nature, Congresswoman Eshoo is a very distinguished senior 
member of the committee on the Democratic side.
    I commend Commissioner O'Rielly and Commissioner 
Rosenworcel for working hard at the FCC, again in a bipartisan 
capacity, to bring to light the actions of these few bad actor 
states. However, the Commission's ability to combat diversion 
is limited. This bipartisan, common sense legislation will 
enable the FCC to ensure that bad actors such as New Jersey are 
no longer able to divert funds.
    I commend the members of the subcommittee for their fine 
work in drafting these important pieces of legislation and I 
thank our distinguished panel for appearing before us today. I 
look forward to the testimony and I now recognize the ranking 
member, Mr. Doyle.
    I now recognize the ranking member, Mr. Doyle.
    [The prepared statement of Mr. Lance follows:]

                Prepared statement of Hon. Leonard Lance

    Since the inception of 9-1-1 as the nationwide emergency 
phone number in 1968, 9-1-1 call centers around the country 
have saved countless lives by giving the public a quick and 
easy way to request assistance in times of emergency. 
Technological advances over the years, such as geolocation, 
have opened up opportunities to improve upon the system, which 
allows law enforcement officers to receive the approximate 
location of where a call originated. In order to keep up with 
the times, many states have established a fee or tax to upgrade 
and maintain their 9-1-1 systems. These funds are especially 
crucial as we look to Next Gen 9-1-1 to update significantly 
the capabilities of our emergency communications. Innovations 
such as text to 9-1-1 and the ability for citizens to send law 
enforcement officers real time video during an emergency have 
the potential to revolutionize our emergency communications and 
save countless more lives.
    Under the New and Emerging Technologies 911 Improvement Act 
of 2008, the Federal Communications Commission is required to 
submit a report to Congress on state collection and 
distribution of 9-1-1 and enhanced 9-1-1 fees and charges. 
These reports have shed light on a handful of states who have 
been raiding these 9-1-1 fees and diverting the funds for 
unrelated purposes. This unacceptable practice leaves counties 
and localities on the hook for maintaining and upgrading their 
systems, endangering public safety. Since 2004, New Jersey has 
collected a 90-cent tax on consumers' monthly telephone and 
cell phone bills for 9-1-1 improvements. However, New Jersey 
has become the worst 9-1-1 fee diverter in country, diverting 
over one billion dollars to non-9-1-1 related purposes. This is 
unacceptable.
    Our constituents need to know that in an emergency their 9-
1-1 call is going to go through. Lawmakers in Trenton, and in 
several other state capitals around the country, have raided 
the funds set aside to improve the 9-1-1 system and left the 
account penniless--leaving public safety threatened and local 
taxpayers on the hook. I opposed the original legislation in 
New Jersey, because it opened the door to the diversion we are 
seeing today. Now New Jersey lawmakers are considering an 
increase on the tax to fund Next Gen 911. Instead of further 
taxing New Jerseyans, Trenton should first stop diverting the 
existing fees from their intended use.
    I am very pleased to welcome Jim Curry on our panel today. 
Mr. Curry is the Division of Communications Director for 
Hunterdon County's Department of Public Safety and Health 
Services. Last month Mr. Curry and the rest of the staff at the 
9-1-1 communications center were kind enough to give me and 
Commissioner Mike O'Rielly of the FCC, who has been a leader in 
the effort to stop states from diverting, a tour of their 
facility. The work they are doing there is truly remarkable and 
I was extremely impressed with the operation they are doing 
there. Despite receiving little to no funds from the state 9-1-
1 fee fund, Hunterdon County has managed to maintain a state of 
the art communications center. However, because the state has 
been diverting the fees in such drastic amounts, counties in 
New Jersey, such as Hunterdon, are left to their own devices to 
fund these critical operations. These funds generally come from 
residents' property taxes, which are already some of the 
highest in the Nation. This is completely unacceptable. New 
Jersey must end this double taxation of its citizens and stop 
leaving counties scrambling to fund essential emergency 
services.
    That is why I have joined Congressman Collins and 
Congresswoman Eshoo in introducing the 9-1-1 Fee Integrity Act, 
which would direct the FCC to establish legitimate uses for 9-
1-1 fees to be directed.
    I commend Commissioner O'Rielly and Commissioner 
Rosenworcel for working hard at the FCC to bring to light the 
actions of these few bad actor states. However, the 
Commission's ability to combat diversion is limited. This 
bipartisan, common sense legislation will enable the FCC to 
ensure that bad actors such as New Jersey are no longer able to 
divert 9-1-1 funds to unrelated purposes and the fees are 
instead directed to their intended use: updating and 
maintaining our critical emergency communications systems.
    We are also considering H.R. 5700, the National Non-
Emergency Mobile Number Act from Congresswoman Brooks and H.R. 
6003, the Anti-Swatting Act of 2018 from Congressman Engel.
    H.R. 5700 directs the FCC to consolidate non-emergency 
numbers with the creation of a unified wireless non-emergency 
number. This will help avoid confusion as consumers cross state 
lines, as there are currently 18 different non-emergency codes 
in use.
    H.R. 6003 stiffens criminal penalties against ``swatting,'' 
a practice that involves maliciously calling emergency services 
to trigger a law enforcement response against another person. 
This is an extremely dangerous practice that puts both law 
enforcement and residents in danger.
    I commend the members of the subcommittee for their fine 
work in drafting these important bills to improve our public 
safety communications and thank our distinguished panel for 
appearing before us today. I look forward to your testimony.

OPENING STATEMENT OF HON. MICHAEL F. DOYLE, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Doyle. Thank you, Mr. Chairman. Thank you for holding 
this hearing today and thank you to the witnesses for your 
testimony today.
    Public safety communications and the integrity of our 9-1-1 
system is of paramount importance to our nation. Ensuring that 
lifesaving aid gets to those in need, in time, often comes down 
to a fast, well-coordinated response by local first responders, 
something our witnesses deal with every day. This process often 
starts when a person in need picks up their phone to call for 
help.
    This subcommittee is examining three pieces of legislation 
today. Mr. Lance and Ms. Eshoo have introduced legislation 
regarding 9-1-1 fee diversion. This is a practice where a small 
number of states divert fees intended to fund and upgrade 9-1-1 
call centers to other non-related public safety programs. This 
bill seeks to further direct and clarify the FCC's efforts to 
investigate and report on this practice.
    The second piece of legislation was introduced by Mr. Engel 
and Mr. Kinzinger regarding swatting, a malicious and deadly 
practice where individuals use weaknesses in the phone network 
to conceal their identity and report a false event that 
warrants a large-scale police response. Such incidents require 
full-scale responses that take time and money away from 
departments tasked with protecting the public.
    Like many here, I have read too many stories of how these 
incidents can go bad as well with SWAT teams being prepared to 
deal with extremely dangerous situations only to come across 
confused and frightened individuals who have been targeted by 
these swatting attacks. Too many times, innocent people have 
lost their lives because of these malicious, deceptive calls. 
Our colleague Congresswoman Clarke has, herself, been a victim 
of swatting.
    I am happy to once again support my colleague Mr. Engel's 
bill to rein in this dangerous practice. This bill was voice 
voted out of committee in the last Congress and I hope that we 
can do so again. I hope as the committee examines this issue 
that we continue our due diligence. Increasing the penalties 
for this offense is important, but we need to strengthen our 
telecommunications systems to ensure that the people calling 9-
1-1 and, to be honest, calling of us are who they say they are.
    Every day I get calls from fake numbers claiming to come 
from my neighborhood. We cannot ultimately curb swatting until 
our phone systems can do a better job of identifying and 
blocking fake numbers. I would urge the majority and the 
chairman to keep this in mind if they hope to address this 
underlying issue.
    Finally, we are looking at a bill introduced by Mrs. Brooks 
and Ms. Eshoo regarding the establishment of a national non-
emergency short dialing code. In Pittsburgh, like many cities, 
3-1-1 is that number. Residents in Pittsburgh can use it to 
report a downed tree, a building code violation, or in my city 
all too often a pothole on a city street.
    This service gives residents a valuable line to the city 
and municipal agencies where they can report important but non-
emergency incidents. Properly implemented, this service can 
reduce the burden on 9-1-1 operators and call centers allowing 
them to focus more fully on responding to real emergency 
situations. I hope we can advance this legislation as well.
    And while I think these bills should be able to move in our 
committee, I am very concerned that this hearing is titled, 
``Solutions to Strengthen U.S. Public Safety Communications.'' 
None of these bills nor the committee's other efforts have gone 
far enough to address many of the underlying challenges facing 
this sector, in my opinion. As the witnesses pointed out, 
public safety agencies need a strong Federal partner to ensure 
that they have the technology and solutions deployed to meet 
the needs of our country.
    I would like to submit for the record an article from the 
New York Times Magazine that was published last month regarding 
one family's horrific experience in Houston during Hurricane 
Harvey. The family couldn't get a medevac via 9-1-1 so they 
resorted to calling their congressman, Gene Green, a member of 
this committee, where an intern answered the phone and helped 
to direct a helicopter rescue.
    The 9-1-1 system was clearly overwhelmed and was not nearly 
robust or resilient enough to tackle the volume of calls or the 
multiple storm related equipment and facility failures that 
occurred. And none of this is in any way intended to diminish 
the brave and courageous efforts of so many volunteers who came 
to their neighbors' aid in this disaster and so many others. 
But for the richest, most powerful nation on earth we can and 
should do better, Mr. Chairman. With that I yield back.
    [The prepared statement of Mr. Doyle follows:]

              Prepared statement of Hon. Michael F. Doyle

    Thank you, Madam Chairman, for holding this hearing, and 
thank you to the witnesses for your testimony today.
    Public safety communications and the integrity of our 9-1-1 
system is of paramount importance to our nation.
    Ensuring that lifesaving aid gets to those in need in time 
often comes down to a fast, well-coordinated response by local 
first responders, something our witnesses deal with every day. 
This process often starts when a person in need picks up their 
phone to call for help.
    This subcommittee is examining three pieces of legislation 
today.
    Mr. Lance and Ms. Eshoo have introduced legislation 
regarding 9-1-1 fee diversion. This is a practice where a small 
number of states divert fees intended to fund and upgrade 9-1-1 
call centers to other non-related public safety programs. This 
bill seeks to further direct and clarify the FCC's efforts to 
investigate and report on this practice.
    The second piece of legislation was introduced by Mr. Engel 
and Mr. Kinzinger regarding Swatting, a malicious and deadly 
practice, where individuals use weaknesses in the phone network 
to conceal their identity and report a false event that 
warrants a large-scale police response. Such incidents require 
full-scale responses that take time and money away from 
departments tasked with protecting the public.
    Like many here, I've read too many stories of how these 
incidents can go bad as well, with SWAT teams being prepared to 
deal with extremely dangerous situations only to come across 
confused and frightened individuals who have been targeted by 
these Swatting attacks.
    Too many times, innocent people have lost their lives 
because of these malicious, deceptive calls. Our colleague 
Congresswoman Clark has herself been a victim of Swatting.
    I'm happy to once again support my colleague Mr. Engel's 
bill, to rein in this dangerous practice. This bill was voice 
voted out of Committee last Congress, and I hope that we can do 
so again.
    I hope as the Committee examines this issue, that we 
continue our due diligence. Increasing the penalties for this 
offence are important, but we need to strengthen our 
telecommunications systems to ensure that the people calling 
911--and to be honest, calling all of us--are who they say they 
are. Every day I get calls from fake numbers claiming to come 
from my neighborhood. We can not ultimately curb Swatting until 
our phone systems can do a better job at identifying and 
blocking fake numbers.
    I would urge the majority and the chairman to keep this in 
mind, if they hope to address this underlying issue.
    Finally, we are looking at a bill introduced by Ms. Brooks 
and Ms. Eshoo regarding the establishment of a national non-
emergency short dialing code. In Pittsburgh, like many cities, 
3-1-1 is that number. Residents in Pittsburgh can use it to 
report a downed tree, a building code violation, or all too 
often a pothole on a city street.
    This service gives residents a valuable line to city and 
municipal agencies where they can report important but non-
emergency incidents.
    Properly implemented, this service can reduce the burden on 
9-1-1 operators and call centers, allowing them to focus more 
fully on responding to real emergency situations.
    I hope that we can advance this legislation as well.
    While I think these bills should be able to move in our 
Committee, I am very concerned that this hearing is titled 
``Solutions to Strengthen U.S. Public Safety Communications.''
    Neither these bills nor the Committee's other efforts have 
gone far enough to address many of the underlying challenges 
facing this sector. As the witnesses point out, Public Safety 
agencies need a strong federal partner to ensure that they have 
the technology and solutions deployed to meet the needs of our 
country.
    I'd like to submit for the record an article from the New 
York Times Magazine that was published last month regarding one 
family's horrific experience in Houston during Hurricane 
Harvey. The family couldn't get a medivac via 9-1-1, and so 
they resorted to calling their Congressman, Gene Green, where 
an intern answered the phone and helped direct a helicopter 
rescue.
    The 9-1-1 system was clearly overwhelmed--and was not 
nearly robust or resilient enough to tackle the volume of calls 
or the multiple storm-related equipment and facility failures 
that occurred.
    And that none of this is in any way intended to diminish 
the brave and courageous efforts of so many volunteers who came 
to their neighbors' aid in this disaster and so many others. 
Butfor the richest most powerful nation on earth, we can and 
should do better.

    Mr. Lance. Thank you very much, Mr. Doyle. The chair now 
recognizes the chairman of the full committee, Mr. Walden of 
Oregon, for 5 minutes for an opening statement.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Thank you very much, Mr. Chairman. I want to 
welcome our witnesses. Thanks both for your help this morning 
in giving us your guidance and counsel and the service you 
provide in your states and communities.
    We have a legislative hearing where we will be discussing 
three important bipartisan public safety bills. Two weeks ago, 
we remembered the sacrifices and the heroism of the September 
11th attacks. Ceremonies across our nation reminded us not just 
of those Americans we lost, but also of the hard work our 
public safety community does day in and day out to keep us 
safe. This is evident again as our first responders managed the 
consequences of various hurricanes including, especially, 
Hurricane Florence.
    Whether at home or at school, our children learn at an 
early age that when an emergency strikes you dial 9-1-1. But 
like the technology systems, our 9-1-1 systems must be 
preserved and improved to deliver potentially lifesaving 
services reliably and seamlessly when called upon. This 
committee worked in a bipartisan manner in Congress to enact 
improved rural call completion so the call actually will go 
through. Also, we passed Kari's Law. That ensures that when we 
dial 9-1-1, no matter where we are including a hotel room, the 
call will go through without the need to dial another number.
    With rules finally approved for NTIA and NHTSA to move 
forward on distributing funds for Next Gen 9-1-1, I am pleased 
these dollars will be finding their way to localities. Whether 
it is these dollars or the much larger share of fees collected 
on your phone bill, we have a duty to ensure that the 6,000 
public safety answering points or PSAPs nationwide that manage 
our 9-1-1 systems are actually receiving these vital funds.
    Unfortunately, we have found that some states have diverted 
their 9-1-1 funds that were assessed for this specific purpose. 
We have seen states divert funding directly into their general 
funds while others use the money for another public safety 
related purpose that may have nothing to do with the 9-1-1 
system. The result is the same: PSAPs aren't getting the money 
they are promised.
    And I would just say as an aside, I would guess that it 
would be a fraud for most people other than the government that 
if you collected a fee for an intended purpose and you put it 
in writing and sent it through the mail and then you diverted 
the funds for some other purpose, my guess is if you weren't 
the government you would be facing a prosecutor.
    So today we will discuss H.R. 6424, the 9-1-1 Fee Integrity 
Act, which would clarify for states and municipalities that 
funds raised for 9-1-1, paid for by users of 9-1-1 and phones, 
are only spent on 9-1-1.
    We will also discuss H.R. 5700, Mrs. Brooks' National Non-
emergency Mobile Number Act. While the FCC designated 9-1-1 as 
the Nation's emergency number more than 50 years ago, the 9-1-1 
system is sometimes used unnecessarily in non-emergencies. So 
in order to preserve 9-1-1 services for true emergencies and to 
ensure limited public safety resources are not used 
unnecessarily, some states have adopted an easy-to-remember, 
short code that the public can dial to reach public safety 
officials in non-emergency situations.
    However, there is no unified short code, so a traveler 
traveling from Colorado to Oregon might be able to dial *-2-7-7 
in Colorado, #-4-3-5-7 in Wyoming, *-4-7-7 throughout Idaho, 
and finally there is no short code in Oregon. So that is a lot 
to keep track of. Mrs. Brooks' bill would make things a whole 
bunch easier. We appreciate her diligent work on this issue 
directing the FCC to set up a unified short code that states 
could choose and then adopt.
    Finally, we will be discussing H.R. 6300 that is Mr. 
Engel's Anti-swatting Act. This should be a familiar bill given 
that we approved by voice vote this bill last Congress. 
Swatting is the act of using misleading or inaccurate caller ID 
information with an intent to trigger a law enforcement 
response where no real emergency exists. Swatting is dangerous, 
it is a drain on precious resources, and it is illegal. 
Unfortunately, swatting incidents remain a problem and continue 
to put law enforcement or innocent bystanders in harm's way. 
Mr. Engel's bill would stiffen criminal penalties against those 
who are convicted of swatting and bolster our public safety 
officials' ability to serve and to protect.
    So, collectively, the bipartisan bills to be discussed 
today will help improve, they will help strengthen the 9-1-1 
system, and enhance public safety across the country.
    So I want to thank our witnesses for being here today. And 
I would also say that it was this committee several years ago 
that passed the legislation that set up the spectrum auction 
that has funded and helped get in place FirstNet and we intend 
to continue to do our due diligence to oversee the 
implementation of FirstNet to make sure that it actually 
delivers on the promise that our first responders will have an 
interoperable public safety network that works for them.
    And so we have done a lot out of the committee mostly in a 
bipartisan way. We appreciate your being here today. We have 
three more important bills to look at. And with that, Mr. 
Chairman, I yield back the balance of my time.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Good morning and welcome to today's legislative hearing 
where we will be discussing three important, bipartisan public 
safety bills. Two weeks ago, we remembered the sacrifices and 
the heroism of the September 11th attacks. The ceremonies 
across our nation reminded us not just of those Americans we 
lost, but also of the hard work our public safety community 
does day-in and day-out to keep us safe. This is evident again 
as our first responders manage the consequences of Hurricane 
Florence.
    Whether at home or at school, our children learn at an 
early age that when an emergency strikes, you should dial 9-1-
1. But like all technology systems, our 9-1-1 systems must be 
preserved and improved to deliver potentially life-saving 
services reliably and seamlessly when called upon. This 
committee worked in a bipartisan manner this Congress to enact 
improved rural call completion so that call goes through, as 
well as Kari's Law to ensure that when we dial 9-1-1 no matter 
where we are, that call will go through without the need to 
dial another number.
    With rules finally approved for NTIA and NHTSA to move 
forward on distributing funds for Next Generation 9-1-1, I'm 
pleased these dollars will be finding their way to localities. 
Whether it is these dollars, or the much larger share of fees 
collected on your phone bill, we have a duty to ensure that the 
6,000 Public Safety Answering Points, or PSAPs, nationwide that 
manage our 9-1-1 system are actually receiving these vital 
funds.
    Unfortunately, we have found that some states have diverted 
9-1-1funds that were assessed for this specific purpose. We 
have seen states divert funding directly into their general 
fund, while others use this money for another public-safety 
related purpose that may have nothing to do with the 9- 1-1 
system. The result is the same: PSAPs aren't getting the 
resources they are promised.
    Today, we will discuss H.R. 6424, the 9-1-1 Fee Integrity 
Act, which would clarify for states and municipalities that 
funds raised for 9-1-1 are only spent on 9-1-1.
    We will also discuss H.R. 5700, Ms. Brooks' National Non-
Emergency Mobile Number Act.
    While the FCC designated 9-1-1 as the national emergency 
number over 50 years ago, the 9-1-1 system is sometimes used 
unnecessarily in non- emergencies. In order to preserve 9-1-1 
services for true emergencies, and to ensure limited public 
safety resources are not used unnecessarily, some states have 
adopted an easy-to-remember short code that the public can dial 
to reach public safety officials in non-emergency situations. 
However, there is no unified short code, so a traveler driving 
from Colorado to Oregon might be able to dial ``star'' *277 in 
Colorado, ``pound'' #4357 in Wyoming, ``star'' *477 up through 
Idaho, and finally have no short code available at all in 
Oregon. That's a lot to keep track of.
    Ms. Brooks' bill would make things easier, directing the 
FCC to set up a unified short code that states could choose to 
adopt.
    Finally, we will be discussing H.R. 6003, Mr. Engel's Anti-
SWATting Act. This should be a familiar bill given we approved 
by voice vote last Congress. SWATting is the act of using 
misleading or inaccurate caller ID information with an intent 
to trigger a law enforcement response where no real emergency 
exists. SWATting is dangerous, it is a drain on precious 
resources, and it is illegal.
    Unfortunately, SWATting incidents remain a problem and 
continue to put law enforcement and innocent bystanders in 
harm's way. Mr. Engel's bill would stiffen criminal penalties 
against those who are convicted of SWATting and bolster our 
public safety officials' ability to serve and protect.
    Collectively, the bipartisan bills to be discussed today 
will improve strengthen and improve the 9-1-1 system and 
enhance public safety across the country. I'd like to thank our 
witnesses for taking time out of their busy week to share their 
thoughts on these bipartisan bills, and with that I yield back.

     Mr. Lance. Thank you, Mr. Chairman. The chair now 
recognizes the ranking member of the full committee, Mr. 
Pallone of New Jersey, for 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    Today we are here to talk about ways to support public 
safety and our nation's first responders. America asks so much 
of our emergency workers and the least we can do is make sure 
they have the best and most up-to-date tools to do their jobs. 
I would like to thank our panel for the work they do every day 
helping Americans in times of crisis and distress.
    It seems almost every week we are reminded of the critical 
role first responders play in keeping people safe. Last week we 
watched as first responders along the Carolina coast rescued 
people trapped in their homes as rising waters made it nearly 
impossible to escape. Emergency communications is critical in 
such times. If 9-1-1 calls are not completed emergency 
responders will not arrive.
    And that is why it so important that Congress enacted my 
SANDy Act earlier this year to help ensure our critical 
communications networks have access to the resources they need 
to stay on line during a disaster. Beyond calls from the public 
to 9-1-1 dispatchers, if police or firefighters can't 
communicate with each other during a crisis their lives and the 
lives of the public are put at risk.
    This committee on a bipartisan basis passed legislation to 
create a nationwide broadband communications network dedicated 
to public safety. What resulted is FirstNet. While early in its 
rollout, the network promises to make first responders across 
the country safer and help them with their work, FirstNet is an 
important step but more must be done to help public safety.
    Today's hearing considers some important issues. I have 
long criticized states including my own in New Jersey of 
diverting 9-1-1 fees. As Mr. Curry will explain, it is 
expensive to operate a 9-1-1 center and it is important that 
they are fully funded. States should also be upgrading centers 
to be Next Generation 9-1-1 capable. Next Generation 9-1-1 will 
enable the public to transmit images, video, and texts to 9-1-1 
centers where operators will be able to process and pass this 
information to first responders. And this is extremely valuable 
information, but the costs will be significant.
    Last year, every Democrat on the committee co-sponsored the 
LIFT America Act which makes key investments in our nation's 
infrastructure including helping to fund the deployment of Next 
Generation 911. In addition, Representatives Eshoo, Torres, and 
I introduced the Next Generation 9-1-1 Act of 2017 which 
expands the federal NG-9-1-1 grant program. These are common 
sense proposals that we should be able to work on together.
    In the coming year, I urge my colleagues to work with me on 
legislation to upgrade our nation's infrastructure including 
our public safety systems. I would also like to recognize the 
important efforts of Mr. Engel to fight swatting, fake 
emergency calls to dispatch police to an address where no 
emergency is occurring. This is really dangerous. It puts 
innocent lives at risk and burdens already stretched police 
resources. So Congress must provide law enforcement the tools 
to stop such malicious acts.
    And I would like now to yield the remaining 2 minutes to, 
oh, I guess he is not here yet, Mr. Engel. I think he is at his 
Foreign Affairs Committee. So I would at this point yield the 
balance of my time.
    Mr. Lance. Thank you very much, Ranking Member. Are there 
any other members of the committee who would like to have an 
opening statement?
    Seeing none, this concludes member opening statements. The 
chair reminds members that pursuant to the committee rules, all 
members' opening statements will be made part of the record.
    We want to thank our witnesses for being here today and we 
appreciate your taking the time to testify before the 
subcommittee. Today's witnesses will have the opportunity to 
give opening statements followed by a round of questions from 
members.
    Our panel for today's hearings will include Mr. Eddie 
Reyes, Director of Public Safety Communications for Prince 
William County; Mr. Jim Curry, the Division Head of the 
Communications Division of the Hunterdon County Department of 
Public Safety; and Captain Paul Starks, the director of the 
Public Information Office at the Montgomery County Police 
Department. We appreciate the fact, gentlemen, that you are 
here today before the committee. We know you have important 
responsibilities in your jurisdictions and we are honored that 
you are in Washington.
    We will begin with Mr. Reyes. You are recognized, sir, for 
5 minutes for the purposes of an opening statement. Good 
morning to you.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Today, we're here to talk about ways to support public 
safety and our nation's first responders. America asks so much 
of our emergency workers, the least we can do is make sure they 
have the best and most up-to-date tools to do their jobs.
    I'd like to thank our panel for the work they do every day 
helping Americans in times of crisis and distress.
    It seems almost every week we are reminded of the critical 
role first responders play in keeping people safe. Last week, 
we watched as first responders along the Carolina coast rescued 
people trapped in their homes as rising waters made it nearly 
impossible to escape.
    Emergency communications is critical. If 911 calls are not 
completed, emergency responders will not arrive. That's why 
it's so important that Congress enacted my SANDy Act earlier 
this year to help ensure our critical communications networks 
have access to the resources they need to stay online during a 
disaster.
    Beyond calls from the public to 911 dispatchers, if police 
or firefighters cannot communicate with each other during a 
crisis, their lives and the lives of the public are put at 
risk.
    This Committee, on a bipartisan basis, passed legislation 
to create a nationwide, broadband communications network 
dedicated to public safety. What resulted is FirstNet. While 
early in its roll-out, the network promises to make first 
responders across the country safer and help them with their 
work.
    FirstNet is an important step, but more must be done to 
help public safety. Today's hearing considers some important 
issues. I have long criticized states, including New Jersey, of 
diverting 911 fees. As Mr. Currey will explain, it is expensive 
to operate a 911 center, and it is important that they are 
fully funded.
    States should also be upgrading centers to be next 
generation 911 capable. Next generation 911 will enable the 
public to transmit images, video, and text to 911 centers where 
operators will be able to process and pass this information to 
first responders.
    This is extremely valuable information, but the costs will 
be significant. Last year, every Democrat on the Committee 
cosponsored the LIFT America Act, which makes key investments 
in our nation's infrastructure, including helping to fund the 
deployment of next generation 911. In addition, Representatives 
Eshoo, Torres, and I introduced the Next Generation 911 Act of 
2017, which expands the federal NG-911 grant program.
    These are commonsense proposals that we should be able to 
work on together. In the coming year, I urge my colleagues to 
work with me on legislation to upgrade our nation's 
infrastructure, including our public safety systems.
    I also would like to recognize the important efforts of Mr. 
Engel to fight swatting--fake emergency calls to dispatch 
police to an address where no emergency is occurring. This is 
dangerous. It puts innocent lives at risk and burdens already 
stretched police resources. Congress must provide law 
enforcement the tools to stop such malicious acts.
    Thank you, I yield back.

      STATEMENTS OF EDDIE REYES, DIRECTOR, PUBLIC SAFETY 
COMMUNICATIONS, PRINCE WILLIAM COUNTY GOVERNMENT; JAMES CURRY, 
  COMMUNICATIONS DIVISION HEAD, HUNTERDON COUNTY, NEW JERSEY 
DEPARTMENT OF PUBLIC SAFETY; AND, PAUL STARKS, DIRECTOR, PUBLIC 
    INFORMATION OFFICE, MONTGOMERY COUNTY, MARYLAND POLICE 
                           DEPARTMENT

                    STATEMENT OF EDDIE REYES

    Mr. Reyes. Thank you, Mr. Lance. Chairman Blackburn, 
Ranking Member Doyle, Mr. Lance, thank you for giving me this 
opportunity to testify before you today. It is an honor and a 
privilege to be selected to represent the 9-1-1 community at 
this hearing and be a part of this bipartisan process.
    I am the director of Office of Public Safety Communications 
in Prince William County, Virginia, one of the Nation's 
approximately 5,800 public safety answering points which has 
been recognized as PSAPs. They are also known as emergency 
communication centers or 9-1-1 centers. ECCs, like the one I 
lead, answer more than 240 million calls every year in the 
United States. That is roughly about 657,000 calls per day.
    Prior to becoming the ECC director in Prince William County 
I was a police officer in Alexandria, Virginia for 25 years. I 
retired as a senior deputy chief and second in command at the 
police department. I worked in almost every unit of the police 
department and I was ECC director in 2001 during the September 
11th attack at the Pentagon and during the 3 weeks in 2002 when 
the Beltway Sniper gripped the entire National Capital Region 
with fear. I am also the chairman of the International 
Association of Chiefs of Police Communications & Technology 
Committee.
    A few statistics about Prince William County's emergency 
communications center: In addition to serving almost half a 
million residents in the county, we provide a wireless 9-1-1 
service and dispatch for police, fire and rescue personnel to 
five small municipalities within our county. We are also part 
of the National Capital Region which has a population of over 
six million residents.
    Public safety organizations in the NCR coordinate 
extensively to make sure area residents receive high quality 
emergency response across the region. Mutual aid is an hourly 
thing for us. My center has just over a hundred employees that 
receive and process approximately 409,000 calls per year in 
which 154,000 of those were emergencies and 254,000 were non-
emergencies. Of the 409,000 calls for service that we received, 
about 251,000 were for police and 44,000 were for fire and 
rescue.
    The largest difference between the number of calls received 
and those dispatched are that they all come from a smartphone.
    I will transition over to the bill that I am most 
passionate about and that is H.R. 6003. I have spoken to 9-1-1 
center directors or staff, law enforcement officers, and major 
associations such as APCO and NENA and all of them support this 
bill. Even before the FBI coined the term ``9-1-1 swatting,'' 
across the country we have been fighting this complex, ever-
evolving threat to public safety. It would just be repetitive 
for me to mention a lot of the things that have already been 
said about swatting other than ditto and we agree. So this is 
very, very important to us.
    Next, I will transition over to House Bill 6424 and that, 
well, almost everyone in the 9-1-1 industry is in favor of this 
bill provided it eliminates a big loophole--lack of audit, 
accountability, and enforcement mechanism to the offending 
states. As it has already been reported, there are offending 
states like New Jersey, West Virginia, and others that are 
known to public safety and 9-1-1 centers for diverting funds. 
And I can tell you that as a proud resident of the Commonwealth 
of Virginia, we know how important it is not to divert funds, 
so I very much support that bill as well.
    Regarding 5700, H.R. 5700, this bill caused the greatest 
quantity in discussion and disagreement among all that I spoke 
with. While some were supportive, the addition of public 
safety, non-emergency short code for mobile users can bring 
unintended consequences to emergency communication centers, 
significantly increasing call volume without considering 
additional staffing. So statistics demonstrate that 9-1-1 has 
been a problem caused by too many non-emergency calls.
    So in closing I would like to take a brief moment to thank 
you, to thank Representative Shimkus and Eshoo for joining with 
their co-chairs of the Next Gen 9-1-1 caucus to send a 
bipartisan letter to the Office of Management and Budget to 
revise the standard occupational classification to accurately 
represent the lifesaving nature of the work performed by 9-1-1 
professionals. 9-1-1 professionals work behind the scenes to 
protect the lives of first responders.
    I am very grateful for the attention this committee has 
given to these very important bills to public safety in 
general, but most importantly to emergency telecommunicators. 
Thank you very much.
    [The statement of Mr. Reyes follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Lance. Thank you very much for your distinguished 
testimony.
    Mr. Curry, you are recognized for 5 minutes.

                    STATEMENT OF JAMES CURRY

    Mr. Curry. Good morning.
    Mr. Lance. Good morning.
    Mr. Curry. Vice Chairman Lance, members of the committee 
thank you for giving me the opportunity to speak with you 
today. It is an honor and privilege to take part in this 
hearing and be a part of this great nation's legislative 
process.
    I am the division head for the Hunterdon County 
communications center in New Jersey, the first county 9-1-1 
system to operate in that State. Prior to my current position, 
I was a police officer for 27 years and retired at the rank of 
captain. I have spent my entire professional career in public 
emergency service without regret.
    Like many counties in New Jersey, Hunterdon County is a mix 
of suburban and rural communities with many bucolic hamlets and 
villages. It is dotted with preserved farmland, numerous acres 
of park land, and two recreational reservoirs. Interstate 78, a 
major highway and artery for Newark and Elizabeth, divides the 
county in half north and south.
    The communications center is the sole provider of emergency 
communications for each municipal police department, fire 
department, and EMS agency in the county. All totaled we 
dispatch for about 60 organizations. Daily we average a little 
over 100 9-1-1 calls or about 38,000 a year. This is carried 
out by 25 dedicated, full-time public safety telecommunicators, 
commonly referred to as dispatchers.
    These men and women are never seen, always heard, and 
seldom recognized. They work nights, weekends, and holidays, 
and like our first responders they can't stay home because the 
weather is bad. Day in and day out they speak to folks who are 
having the worst day of their lives. For some of those callers, 
the dispatcher is the last human voice they will hear. If you 
ask the dispatchers why they keep doing the job, most will 
answer because they enjoy it. They enjoy making a difference.
    I live and work in the State of New Jersey. It is a 
fantastic state. Beaches, mountains, entertainment venues, New 
York City, and Philadelphia all within a short drive from most 
anywhere in the state. Its marine ports, colleges and 
universities, all within a short drive from anywhere in the 
State, and businesses, also make it a great place to live and 
work. New Jersey is a major hub of global economy.
    Unfortunately, but deservedly, it is also known as a 
heavily-taxed state. We in New Jersey have come to enjoy top-
shelf services, especially the emergency service we receive. 
After all, you get what you pay for. Well, maybe not always. I 
was requested to appear today before this committee to discuss 
H.R. 6424, the 9-1-1 Fee Integrity Act, because in my State 
when you pay certain fees on your phone bills, called 9-1-1 
fees, it doesn't finance what one might expect.
    According to the New Jersey Association of Counties and the 
New Jersey Wireless Association, the state collects 
approximately $120 million annually in consumer surcharges as 
9-1-1 system and emergency response fees and deposits into a 
trust fund. However, according to the FCC, since 2006, only 11 
percent of the 1.3 billion collected has been spent on eligible 
expenses. None of the money has been used to fund those 
eligible expenses at the 9-1-1 level, local 9-1-1 level.
    To provide an example, last year we completed an upgrade to 
our 9-1-1 phone system. It wasn't voluntary. The old system was 
no longer supported. At a cost of $600,000 the project was paid 
for using capital improvement funds, in other words taxpayer 
money. Those taxpayers may have thought they subsidized it when 
they paid their phone bills, but actually they paid for it 
twice.
    Operating a 9-1-1 center is expensive. In 2016, our overall 
budget exceeded two and a quarter million dollars. This year 
our operating budget alone was $310,000. The cost to maintain 
our 9-1-1 system will devour well over one-third of that. The 
remainder will be spent on radio equipment and tower and 
generator maintenance, site security, and a host of other 
essential expenses.
    We look forward to the day when Next Generation 9-1-1 is 
realized in New Jersey. It will enable the public to transmit 
text images, video, and data to our center. Our frequent saying 
by one of our technicians, Matt Tamburro, is this isn't like 
what you see on television, and it isn't. The reality is 
dispatchers try to find a caller's location by manual entries 
and interrogation.
    We don't know what the associated costs will be for us for 
Next Generation 9-1-1 and I dodge the constant barrage of 
vendors, daily, willing to sell us their products that will get 
us through until the arrival of Next Generation 9-1-1. Those 
wares come with a hefty price tag. Even in just a small 9-1-1 
center like ours, the cost can exceed $35,000 annually.
    I could ramble on about the 9-1-1 funding needs of the 
Hunterdon County communications center, but I would prefer to 
conclude with the importance of 9-1-1. When a caller requests 
the police they understand that officer may be on another call. 
When that caller dialed 9-1-1 they expect it to be answered 
immediately and by a well-trained professional. The police may 
work shorthanded for a shift, but the 9-1-1 seat must be 
occupied.
    This month we remember the tragic events of 9/11 and just a 
few miles to our south the effects of a major hurricane 
continues to wreak havoc on tens of thousands of people's 
lives. When citizens are faced with a situation beyond their 
own capabilities they will dial 9-1-1. Those three digits are 
the same for everyone and it does not discriminate. Perhaps we 
can do without electricity for a short while, but we must have 
a robust 9-1-1 lifeline infrastructure. Likewise, the 
dispatchers need the tools to accomplish their mission of 
helping others and saving lives.
    I want to end my statement by publicly thanking the 
Hunterdon County dispatchers, technicians, and administrative 
staff. You do make a difference every day. Moreover, I wish to 
thank this committee for your time and devotion to public 
service not only concerning this issue but for all matters that 
have and will be decided on in the future. Thank you.
    [The statement of Mr. Curry follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Lance. Thank you very much, Mr. Curry.
    The chair now recognizes Captain Starks for 5 minutes, 
Captain Starks. Welcome to the subcommittee.

                    STATEMENT OF PAUL STARKS

    Mr. Starks. Thank you and good morning to distinguished 
members of this committee. My name is Paul Starks. I am 
director of the Public Information Office with the Montgomery 
County Police Department where I have been a cop for 34 years. 
Our jurisdiction is in Maryland just across the line and 
adjacent to the District of Columbia.
    We live in a time where so many forms of technology have 
been developed and can be accessed by most people and we live 
in a country with a free and open society where a variety of 
communication paths are available to virtually everyone. Some 
of these methods to call in a phone call or post or send 
messages are assigned to and can be traced back to an 
individual, but some of the steps that are used in some of 
these methods are not as easily walked back and therefore it is 
not as easy to determine the history of access or use.
    Some of that lends itself to false reporting of in-
progress, violent crimes that can potentially cause a major 
response by law enforcement, fire and rescue, and other 
emergency services providers. That type of false call has been 
termed ``swatting.'' When an individual creates a swatting 
incident detailing false information that involves an act of 
violence, sometimes involving a large population group like 
that of a school, it causes large numbers of personnel to put 
forth efforts that are not only costly but also strip an 
organization and a community of public safety resources.
    When a message is first received, call takers, dispatchers, 
and their supervisors become involved in gathering details 
regarding that call. This event also may take a 9-1-1 line out 
of service while these details are confirmed. Next to be 
involved are the cops and fire and rescue employees who are 
taken from their primary responsibilities and direct their 
attention to the current call. This involves a potentially 
dangerous, higher speed, lights and siren responses and removes 
public safety personnel from their legitimate duties.
    Should there be an actual need in that same geographical 
area, help must come from further away making someone 
experiencing a medical emergency or a crime victim wait 
unnecessarily for potentially lifesaving resources. 
Furthermore, depending on the details of the swatting call, 
tactical team members, negotiators, and specialty fire and 
rescue personnel and their equipment are often dispatched to 
these scenes.
    When first responders arrive, an attempt to contact 
potential victims and suspects at what it is believed to be an 
active and volatile scene it becomes potentially dangerous for 
all parties. At one such encounter in Kansas this led to an 
innocent father of two being fatally shot by responding law 
enforcement officers who legitimately believed he was a threat 
at that scene. Investigation of that event led to a California 
man being charged with being responsible for the swatting event 
where the call was initiated.
    In the recent past in my jurisdiction, Montgomery County 
has received multiple swatting calls. One event involved a 
message claiming that bombs had been planted in a Silver Spring 
high school which led to an emergency response by public safety 
and evacuation of approximately 2,000 students and staff. This 
call was ultimately determined to have come from out of state.
    Fortunately there were no reported injuries, but resources 
were deployed, teaching and learning came to a halt that day, 
and due to the weather students and staff had to be housed at 
other nearby schools and places of worship causing other 
disruption. This doesn't begin to address the cost of long-term 
investigative efforts and also the potential emotional toll 
taken on students and staff who are affected by these types of 
calls.
    In conclusion, I believe this bill is necessary to augment 
state and local efforts with federal resources to investigate 
swatting events, and in the end individuals who initiate these 
calls will be more easily held responsible by employing 
appropriate fines, incarceration, and specific cost recovery 
from suspects for expenses incurred during the response and 
investigation. I thank you for your attention.
    [The statement of Mr. Starks follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Lance. Thank you very much, Captain Starks. And to the 
entire panel, thank you for your public service.
    I will begin the questioning and recognize myself for 5 
minutes. I had the opportunity to tour the 9-1-1 call center 
operated by Mr. Curry in Hunterdon County, New Jersey. It is 
the county where I live. It is a relatively small county, 
130,000 residents. We only have 21 counties in New Jersey with 
nine million people, so it is one of our smaller counties.
    Mr. Curry, how much funding have you received from the 
state 9-1-1 system over the past 10 years?
    Mr. Curry. From the state, zero.
    Mr. Lance. Where does the majority or perhaps the entirety 
of your funding come from?
    Mr. Curry. Taxpayer money.
    Mr. Lance. Taxpayer money, but not from state coffers.
    Mr. Curry. No, it is local property tax.
    Mr. Lance. From the property tax burden. What is your 
county's long-term plan for upgrading to Next Gen 9-1-1 given 
the lack of state funding?
    Mr. Curry. As we wait for the Next Gen 9-1-1, there are 
vendors out there that can provide us with software similar to 
the Next Gen 9-1-1, but it comes at a very high price tag. So 
it is questionable if we will actually be able to afford that. 
Until then, we will just continue conducting business as we do.
    Mr. Lance. Thank you.
    Mr. Reyes, does the public, in your opinion, understand 
that in some states funds are diverted and that part of their 
monthly telephone bill is being collected to upgrade the 
systems when in fact that may not always be the case?
    Mr. Reyes. I don't think they understand, but as I said, 
Mr. Lance, in the Commonwealth of Virginia that is not so much 
of a problem. So that is why it has not been a widely 
publicized issue for that.
    Mr. Lance. You are doing a good job in Virginia.
    Mr. Reyes. Well, the elected officials are, sir.
    Mr. Lance. I commend you.
    And what is the situation in Maryland, in your 
jurisdiction, Montgomery County?
    Mr. Starks. What was the specific question?
    Mr. Lance. The question relates to the funding that is 
received. Do you receive funding for these purposes from the 
state of Maryland?
    Mr. Starks. Some generally, I can't confirm the exact forms 
for the amounts or percentages.
    Mr. Lance. Thank you.
    Regarding Congresswoman Brooks' fine legislation, would any 
member of this distinguished panel care to comment on it and on 
your views as to how we should move forward regarding 
Congresswoman Brooks' legislation?
    Mr. Starks. Is that for the cost recovery?
    Mr. Lance. No, no, on emergency calls.
    Mr. Reyes?
    Mr. Reyes. Yes. I will start with that, Mr. Lance. So that 
is a mixed one for us. So while we think that there should be 
standard----
    Mr. Lance. I am a hundred percent for it, but----
    Mr. Reyes. So while I think that, you know, it makes sense 
to come up with a standardized non-emergency number that is 
across the country similar to what we have right now for the 
emergency number, the concerns with that is that centers would 
start to receive a lot more volume and that we wouldn't have 
sufficient personnel.
    So I think it is a good idea providing that there was 
funding considerations given to additional staffing in the 
centers.
    Mr. Lance. Very good. Would any other member of the panel 
like to comment? Mr. Curry?
    Mr. Curry. Sure, Congressman, thank you. In the state of 
New Jersey we have #-7-7, which is informally known as the 
snitch number, which is when you can dial that number in for 
aggressive drivers, people on cell phones and stuff.
    Mr. Lance. Yes.
    Mr. Curry. We also have 5-1-1, which is another number, 
which gives you an automated instructions for traffic.
    Mr. Lance. I see.
    Mr. Curry. So even in amongst the state of New Jersey we 
have two different numbers that can be confused.
    Mr. Lance. It is confusing.
    Mr. Curry. So I would appreciate that in my state.
    Mr. Lance. Captain Starks?
    Mr. Starks. To echo what Mr. Reyes said, this is a good 
idea for this national non-emergency code or number but as long 
as the staffing is also provided.
    Before coming here I spoke with the director of our ECC. He 
is for anything that can free up 9-1-1 lines for true 
emergencies and get the non-emergency calls which every center 
receives directed to the non-emergency lines.
    Mr. Lance. Thank you.
    Without objection, I will enter into the record the 
following documents: A letter from the Hunterdon County 
Freeholders--freeholders in New Jersey are county 
commissioners--in support of H.R. 6424, the bill I am 
sponsoring, and an article on the 9-1-1 fee diversion in New 
Jersey, without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. Lance. And now I am pleased to recognize the ranking 
member, Mr. Doyle of Pittsburgh.
    Mr. Doyle. Thank you, Mr. Lance. Snitch number, huh? That 
is only in Jersey would they call it a snitch number.
    Mr. Lance. Thank you for that very nice compliment, Mr. 
Ranking Member.
    Mr. Doyle. Well, I will tell you I would like to call that 
number every time I see somebody texting while they are driving 
their car.
    So let me ask a question for the entire panel. Maybe we can 
just start with Mr. Reyes and go forward. You know, as all of 
you are considering the cost of maintaining and upgrading 9-1-1 
systems to enhance the next generation systems, are you 
concerned that the current federal, state, and local funding 
structures are sufficient to deploy a robust and resilient 
national 9-1-1 system?
    Do you any of you believe there is a funding shortfall 
nationally that may leave many communities behind? What is your 
thoughts on or how confident do you feel that the funding 
exists for you to put that kind of a system in?
    Mr. Reyes. So in Virginia I can tell you that most 9-1-1 
center directors are grossly underbudgeted. And so there is not 
enough budgeting especially not for Next Generation 9-1-1. In 
the National Capital Region, the Northern Virginia center 
directors are implementing Next Generation 9-1-1 as a region, 
not so much as an individual, just to take advantage of, you 
know, multiple purchases reducing the cost. And I can tell you 
that we are, you know, moving our different priorities around 
to make sure to accommodate that.
    At the federal and state level, again I don't agree that 
there is sufficient funding being directed towards 9-1-1 
centers. I think what we would need in order to get to that 
level is a bill similar to the bill that brought FirstNet on 
for national broadband. Give that same level of attention and 
funding to Next Generation 9-1-1.
    Mr. Doyle. Thanks, Mr. Reyes.
    Mr. Curry?
    Mr. Curry. As it stands today, with 89 percent of the phone 
bill fees being diverted away there is obviously not enough 
money. Only 11 percent is going towards 9-1-1 at all at the 
state level.
    Mr. Doyle. This is in New Jersey?
    Mr. Curry. This is in the state of New Jersey. And I have 
full faith in the state of New Jersey that the people who 
handle 9-1-1 at that level that they can get us Next Gen 9-1-1, 
but they would need proper funding to do so.
    Mr. Doyle. Thank you.
    Mr. Starks?
    Mr. Starks. Thank you. To save time I would say similar to 
what they said, and in Montgomery County a specific example is 
that the funding isn't there. Right now we have mandatory 
overtime for workers there and there is an incredible turnover. 
I don't think that is unique across the country.
    Mr. Doyle. Yes. I would just reiterate to my colleagues, if 
we want to get this problem solved it is going to take more 
resources and I think there is just no doubt about that. It 
seems like swatting is only getting more and more commonplace. 
I get calls all the time that are not only my area code, but my 
local dialing code. And I am thinking it is somebody that I 
know because the number looks familiar and it is--well, you 
don't know who it is. It is a tape recording or something else 
saying that they want you to do something.
    But, and I think, we see this swatting as putting more and 
more people at risk every day too when it involves, you know, 
phony calls that require first responders to do something, you 
know, the question is there.
    Are you all getting concerned that it is getting harder to 
verify a caller's identity and location? Do you see this is as 
a problem and are your people experiencing more and more 
incidents of not being able to correctly identify a caller's 
name and location?
    Mr. Reyes. So in Prince William County, Mr. Doyle, it is 
difficult to find legitimate callers, people that are calling 
9-1-1 because they can't breathe or they are having a robbery 
in progress, let alone the swatters. The swatters, the 
experiences that we have had, we had one just a couple months 
ago at a school and that person was out of the country, the IP 
address that was tracked down wasn't even in the United States. 
So of course even if we were to track that person down, 
prosecution would be nearly impossible.
    Mr. Doyle. Any others have comments on that?
    Mr. Curry. To echo what Mr. Reyes said, we had one 
recently. And we work in a--I wouldn't say that it is getting 
harder for us to track people down, but it is surely not 
getting easier and Next Gen 9-1-1 would help us with that.
    But also to echo the captain as well, for a small center 
like ours when we get one of those calls we don't have a lot of 
redundant resources in the form of personnel. So when we get a 
call like that it is all hands on deck and it really does 
detract from somebody else who could possibly be having a 
legitimate emergency.
    Mr. Doyle. Yes. It is a real problem.
    Mr. Starks. Mr. Doyle, in your opening statement you used 
the terms ``malicious,'' ``deadly,'' and I believe 
``wasteful,'' and you are dead-on there. There is just a ripple 
effect when these calls come in and many times it is a larger 
scale event like a school, but sometimes it is a residence, 
somebody of some notoriety.
    In one instance in Montgomery County it was a national news 
broadcaster who wasn't home. And dispatchers and good cops who 
were responding recognized some of the characteristics of this 
call and really put some information together and determined 
that this man wasn't even home but was in New York City, made 
contact with him and really diverted a lot of resources from 
coming and stopped a potentially dangerous situation from 
occurring.
    Mr. Doyle. Thank you, Mr. Chairman. I yield back.
    Mr. Lance. Thank you. And the chair now recognizes Mr. 
Shimkus.
    Mr. Shimkus. Thank you, great to have you. Thank you for 
your service, all of you. I am going to be pretty brief and 
short because I think the bills are pretty clear and I think 
they identify problems and we have got to move the process 
forward.
    But, first of all, I just wanted to mention that here, 
across the country, and even in Washington, D.C. it is kind of 
all opioids all the time and so we allowed the naloxone to be 
administered by first responders in this most recent package. I 
think we want to obviously have the appropriate training, so I 
think there is some funding to allow training for that to 
happen because we know with that ability to help comes a risk 
and we have seen that in the first-line responders.
    So I would ask the associations to keep us posted on what 
we may be doing to be helpful and what things we are doing that 
may not be helpful.
    This fee diversion thing has been a bone of contention with 
me for a long time. I have been in the 9-1-1 debate especially 
in the cellular side since I have been a member and my state 
was pretty good at first and then it became bad and now rumors 
are that they are labeled as good. But I am worried about the 
gaming of the system by states by filing that they are not 
diverting and then as soon as it has been listed that they are 
not a diversion state they divert.
    Do you see any of that gaming going on in the system from 
your observations? Mr. Curry is probably the best.
    Mr. Lance. You have a right to remain silent, Mr. Curry.
    Mr. Curry. I don't know that it is good or bad that you 
called on me for that. You know, if I sounded too negative 
about the state of New Jersey I didn't mean to be. In fact, 
they are one of the states that when they were asked did come 
forward and they were truthful in how they do spend the money. 
I think it is going to just require a constant observation by 
the FCC.
    Mr. Shimkus. Well, I think the benefit of my colleague Mr. 
Lance's bill it ensures that states do the right thing. And I 
think Congressman Lance is right on, or actually Chairman 
Walden too. We see this in other things. When you collect money 
for a certain purpose and not use it for that purpose most 
average Americans would not get away with what governments are 
allowed to get away with.
    So, well, let me ask Mr. Curry, on the accounting side 
loss, so for a year you probably have a projection of what you 
should receive and if you don't receive that is there any hope 
and expectation that you will receive it or is it a loss, year 
by year it is gone?
    Mr. Curry. There is never a projection to receive anything. 
I know from every year that from the state I am going to 
receive zero.
    Mr. Shimkus. But you should be able to know since it is a 
fee on--don't you have a projection of what you hope to get?
    Mr. Curry. That figure would be what the state takes in and 
then how they decide to spend that money would be up to them.
    Mr. Shimkus. Yes, I would think that there would be a 
better way. I guess the way I am trying to ask the question is 
since you don't know what the apportioned amount might be there 
is no way that you book hopeful incoming revenue so that you 
can't book loss because you are never projecting revenue.
    Mr. Curry. Correct. I never project revenue from the state.
    Mr. Shimkus. Yes. Well, I am sorry to hear that. Let me, I 
guess the last thing is for--I represent 33 counties in 
southern Illinois so obviously most of them are--yours would be 
a good county in my congressional district. It would probably 
be the biggest county in my congressional district.
    Having said that, fee diversions for rural, small operating 
systems are probably, would you say there is an exponential 
challenge for rurals because of the cost, you just don't have 
the numbers? And what about the PSAPs really cover multiple 
areas so there may be a cascading event. Is that appropriate to 
word it that way?
    Mr. Curry. I think what you are asking me and I hope I am 
answering this correctly, there are certain requirements that 
you must have if you have a 9-1-1 center. It doesn't matter if 
you are a big 9-1-1 center or a small 9-1-1 center. You have to 
have CAD system. You have to have a recorder. You have the 
continued maintenance on all this equipment.
    Again for us all that money is paid for by the taxpayer. 
And for these taxpayers they are paying for it twice.
    Mr. Shimkus. Yes, great. Thank you very much.
    I yield back, Mr. Chairman.
    Mr. Lance. Thank you, Mr. Shimkus. The chair recognizes Mr. 
McNerney.
    Mr. McNerney. Well, I thank the chairman and I thank the 
panelists. I am going to change the subject a little bit if you 
don't mind too much.
    Our nation is facing a growing number of cybersecurity 
threats. For example, the Mirai botnet that was used in the 
DDoS attacks, WannaCry that had infiltrated hospital systems, 
and the Spectre and Meltdown chip vulnerabilities. So it is 
clear that we need to be more vigilant in protecting against 
cybersecurity threat. Now this is especially important in the 
case when it comes to protecting the safety infrastructure that 
we have. After all, how can public safety officials protect the 
public from harm if their own systems are vulnerable to attack?
    So, Mr. Reyes, would you agree that it is something that we 
need to be concerned about?
    Mr. Reyes. Yes, absolutely, sir. We just had a meeting this 
week, the 9-1-1 centers of Northern Virginia--Ms. Gordon who is 
here representing Alexandria--and that was one of the issues 
that was in our agenda. And this is where the 9-1-1 funds that 
are given to 9-1-1 centers are being diverted. We are talking 
at the Northern Virginia region how to as a region, bring about 
one vendor that can give us the same level of protection across 
the board.
    So that is something that is very high up on our agenda and 
we desperately are dedicating funding for protecting our 
networks because they are crippling on a regular basis around 
here, around the Beltway. And, you know, the vendors just chalk 
it up to, oh, we had a network issue, but we know that it is 
happening way too common for it to just be network issues all 
the time.
    Mr. McNerney. Thank you.
    Mr. Curry and Mr. Starks, do you also agree?
    Mr. Curry. I agree. I don't have anything to add.
    Mr. Starks. Yes.
    Mr. McNerney. Well, what challenges do you face when it 
comes to protecting your own systems against the potential 
cyber threats, Mr. Reyes?
    Mr. Reyes. Well, it is the same threats and challenges that 
everyone else faces including, you know, the Department of 
Defense where our networks are constantly being attacked. The 
threats are growing stronger on a regular basis, but yet 
unfortunately at the local municipal level we don't have the 
resources both in personnel and in funding to address or tackle 
those types of constant threats.
    So we are not in a proactive mode, we are more in a 
reactive mode. Unfortunately for us we would like to see when 
we are getting an attack to be able to prevent it. 
Unfortunately for some of the denials of service that we have 
witnessed it has been after the fact and we would like to 
prevent them and make sure they don't happen.
    Mr. McNerney. Well, I mean you were talking about some of 
the steps that you have taken. What are some of the things that 
you think that we in Congress could do to help you better 
protect your systems?
    Mr. Reyes. Well, funding of course is always the number one 
thing. And of course number two is some dedicated federal 
legislation that when we identify these individuals that are in 
our home and our home country be able to put some significant 
fines and punishment behind these individuals so that it could 
hopefully serve as a deterrence to others.
    Mr. McNerney. Thank you. I also want to talk about 
wildfires. In Northern California we have witnessed some 
devastating wildfires and it is absolutely critical that first 
responders have access to information as quickly as possible. 
Now in a recent incident, data service was slowed down for 
first responders battling wildfires and that is completely 
unacceptable. The wildfires have also drawn attention to the 
importance of wireless emergency alerts.
    So, Mr. Reyes, given your experience in public safety what 
are some of the reasons why counties would choose not to use 
wireless emergency services?
    Mr. Reyes. Well, coverage is one of them. And the scenario 
that you described, while there was allegations of the vendor 
deliberately throttling back bandwidth the most significant 
concern when that is not the issue is just getting coverage in 
those rural and remote areas. So that is one of them.
    The other one is overloading of the system. Because most of 
us are on commercial wireless networks, when you have a 
convergence of a lot of mutual aid and lots of first responders 
they very quickly overwhelm a commercial wireless system, 
whereas if we were to be on a dedicated network like FirstNet 
that should not happen.
    Mr. McNerney. Do you have anything to add, Mr. Curry?
    Mr. Curry. Actually I was just informed this past week by a 
vendor, by a representative of AT&T, we did buy into the 
FirstNet system. We are the first county dispatch center in New 
Jersey to do so, and again they assured that there would be no 
throttling back on the FirstNet system. As Mr. Reyes said, we 
do have some coverage issues in the county, but it is early on 
yet.
    Mr. McNerney. Well, how important, Mr. Reyes, do you think 
it is to have appropriate officials to receive the necessary 
training to administer these alerts then?
    Mr. Reyes. Very important, yes.
    Mr. McNerney. OK.
    Thank you, Mr. Chairman. I yield back.
    Mr. Lance. Thank you very much. The chair recognizes Mr. 
Guthrie.
    Mr. Guthrie. Thank you, Mr. Chairman. I appreciate the 
opportunity to be here and I have a few questions. And I am 
sorry. I have been--a couple other hearings are going on so I 
have been bouncing in and out, but I will try not to repeat 
what has already been asked or said.
    So these are for Mr. Curry. Do you think states should be 
required to report the fees they divert to FCC? Right now the 
FCC study is voluntary. And is there any other information you 
don't get to include on the FCC study that you wish you could?
    Mr. Curry. To ensure that the money was being spent the way 
that taxpayers expect the money to be paid, I would have to say 
yes that there should be FCC oversight.
    Mr. Guthrie. For the study. And do you think there is some 
information you would like to include that is not in the study 
now? Is there additional information?
    Mr. Curry. Not if the bill looked to be fairly thorough and 
complete.
    Mr. Guthrie. Fairly thorough, OK. How does a county in a 
diverting state with multiple call centers handle this 
situation? Do they have to choose which call centers to upgrade 
or which call centers get to hire more staff or do they evenly 
split the funds among the call centers?
    Mr. Curry. Among local call centers in New Jersey no one 
has received any money.
    Mr. Guthrie. No one has seen any money, OK.
    Mr. Curry. Out of the 11 percent that was spent on 9-1-1 it 
did not reach the local level.
    Mr. Guthrie. It didn't get to the county level. OK. And 
then what are some of the features your 9-1-1 system is missing 
because you have been unable to upgrade due to financial 
constraints?
    Mr. Curry. The biggest hurdle we have is caller location. 
We don't have Next Gen 9-1-1 and the software is very expensive 
to purchase for us to give us the ability to do that without 
the Next Gen 9-1-1. We would have to have an outside vendor 
provide us with that software.
    Mr. Guthrie. OK, I appreciate, well, I appreciate that and 
that is my questions. So I will yield back my time.
    Mr. Lance. The chair recognizes Ms. Clarke.
    Ms. Clarke. I thank Chairman Lance and Ranking Member Doyle 
for convening this very important hearing on public safety 
communications. I am pleased that the subcommittee is 
considering the Anti-swatting Act introduced by my colleague 
and fellow New Yorker Mr. Engel.
    Over the past several years, the practice of swatting has 
increased in prominence. Swatters who have often been involved 
in online disputes make hoax calls to emergency response teams 
leading to their deployment. The practice has resulted in 
wasted law enforcement resources and physical harm, even death, 
to its unsuspecting victims.
    So my first question is actually to Captain Starks. I have 
read stories of Parkland activist David Hogg being the victim 
of swatting and worry that such techniques may be used to 
stifle debate and free expression in addition to all of the 
other harm that it causes. In your experience are swatting 
calls being targeted at particular populations or types of 
individuals?
    Mr. Starks. Yes, and I don't think it is unique to 
Montgomery County. It has been schools where I mentioned had to 
be evacuated and housed because of the weather that day, but 
also people of notoriety as well are targeted. And the intent 
is to bringing all kinds of resources and then when you do that 
the potential dangerous situation to anyone who may be at that 
location whether it is a business or a residence with that kind 
of response.
    Ms. Clarke. Is there a psychological profile that is sort 
of beginning to, I guess, come to the fore around individuals 
who would engage in these swatting tactics?
    Mr. Starks. None that I know of. But it seems just to be a 
younger population. The example I mentioned where the school 
was evacuated, I believe the person was a juvenile located 
outside of this country.
    Ms. Clarke. Wow, OK. Law enforcement officers face 
difficult choices in the best of circumstances and I am 
concerned that swatting calls might be particularly devastating 
in some minority communities where unfortunately there might 
already be tensions with law enforcement.
    So Captain Starks, what can we do to deter swatters and 
help police officers safely respond to these dangerous hoaxes 
regardless of where they are called in?
    Mr. Starks. I think more discussion about this, more 
education to the public that this is not a joke. It is not a 
hoax but it does cause, as been mentioned, a waste of 
resources, resources being stripped away from what they would 
normally be doing. But more importantly, there is a potential 
danger to anyone on both sides of this issue, the responders 
and whoever happens to be home.
    I think the education piece is one part of it and I think 
the components of this legislation are important as well to 
make it a federal crime. And of particular interest to my ECC 
director was the cost recovery where we can provide an 
accounting or a local jurisdiction could provide an accounting 
and then get those dollars back from the group or an individual 
who caused it to occur.
    Ms. Clarke. Very well. And law enforcement has sometimes 
had difficulty classifying swatting under current laws. Some 
cases have resulted in charges related to cyber terrorism while 
others have approached the issue as a criminal mischief. How 
would you classify swatting under our current legal system?
    Mr. Starks. Well, it would be a criminal offense to make a 
false call in the state of Maryland, to make a false, you know, 
emergency call. But this additional legislation would clearly 
add more bite to it.
    Ms. Clarke. Very well. Some swatters have been convicted 
under federal criminal statutes. How would Mr. Engel's bill 
help law enforcement officers and prosecutors contain the 
threats posed by swatting?
    Mr. Starks. I think with the more specific legislation that 
has been mentioned and the ability to have some options 
depending on the circumstances of the allegations--local, 
state, or federal--gives us more options and more advantage 
over these criminals.
    Ms. Clarke. Well, I thank you very much, Captain Starks. 
And I thank all of our witnesses for your expertise this 
morning and I yield back.
    Mr. Lance. Thank you, Ms. Clarke. The chair recognizes Mr. 
Olson for 5 minutes.
    Mr. Olson. I thank the chair and welcome to our three 
witnesses. Also I want to thank you all for your years, decades 
of service on the thin blue line. Thank you, thank you, thank 
you, for that.
    My questions will focus on one big storm, Hurricane Harvey. 
Now as you all know it hit my hometown, my home region twice 
moving very, very slow. It dropped on average 40 inches of rain 
in 2 days, almost four feet of rain over almost all of 
Southeast Texas. 9-1-1 was overwhelmed with calls. As Ranking 
Member Doyle mentioned in his opening statement, people could 
not get through with the calls. One example I heard back home, 
a senior citizen, his wife, their home was flooding. They 
called 9-1-1 for about an hour, could not get through. Somehow 
they planned to go to Chick-fil-A after they were rescued. They 
made that call to Chick-fil-A that went through. And for some 
reason only known to God and luck, Chick-fil-A showed up and 
rescued those two people.
    Mr. Curry, before this hearing you told me a great story 
about how a big difference between Kingwood, New Jersey and 
Kingwood, Texas. And prior to Hurricane Harvey someone was 
misrouted from Kingwood, Texas to Kingwood, New Jersey and your 
people stuck with this person over and over and got them 
rescued back home in Kingwood, Texas. So thank you for that 
again, but that is lucky as opposed to having a plan.
    I want to talk about the Brooks-Eshoo bill, the H.R. 5700 
National Emergency Mobile Number Act. And my hometown of Sugar 
Land has a 3-1-1 system already that opened up last year I 
found out at the mayor's big annual State of the City address, 
it works. About 2 months ago I am riding down my street. There 
is a big branch on the sidewalk. I called up 3-1-1; within 
hours that branch is gone. But my neighbors had no clue that 3-
1-1 was available, no idea it was out there.
    And so the question is how can people determine, how do you 
determine what is a true emergency for 9-1-1 and what is a non-
emergency for 3-1-1? Can callers differentiate between 9-1-1 
and 3-1-1, in your opinion, Mr. Reyes, Mr. Curry, and Mr. 
Starks? What are the challenges there to get them to know what 
is really an emergency and what is not?
    Mr. Reyes. So, sir, we do not have 3-1-1 in Prince William 
County, but from talking to some municipalities that do have 3-
1-1 they embed in the voice calling options. If you dialed 3-1-
1 for example, when it answers, the voice tree answers, it says 
if you have an emergency press one and then it reroutes you 
over to 9-1-1. So that is my only experience with 3-1-1, but we 
are not a 3-1-1 municipality.
    Mr. Olson. How do you deal with Chick-fil-A calling up you 
guys at 9-1-1? How do you deal with that situation? How do you 
get them off your line because that is clearly not an 
emergency?
    Mr. Reyes. Well, that happens on our ten-digit non-
emergency. So our county has a ten-digit non-emergency number 
that the county residents use and so when they dial 9-1-1 and 
it is a non-emergency call our call takers divert them to the 
non-emergency calls internally.
    And then we are doing an education program within our 
county at the school level where we are reaching out to kids. 
We just awarded four kids on Saturday, awards for making the 
right call----
    Mr. Olson. Awesome.
    Mr. Reyes [continuing]. Because at school they learned the 
awesome power of 9-1-1 and how to use it properly. So I think 
we have to do something similar with the non-emergency number.
    Mr. Olson. Great. Mr. Curry, your comments on----
    Mr. Curry. Because we handle all the phone calls for each 
municipal police agency in Hunterdon County, if somebody were 
to call on the non-emergency and they do, they call on the non-
emergency ten-digit number, because all the calls come to the 
same center it wouldn't be an issue for us.
    Mr. Olson. Yes.
    Mr. Curry. Because the same dispatchers who take the 9-1-1 
calls, they are in that same room and they can just as easily 
handle that 3-1-1, for example. And we are going to take the 
same number of calls if it is 9-1-1, 3-1-1 or the ten-digit 
number because if they are going to call they are going to 
call. It is just a matter of the method in which they decide to 
use and what is most beneficial for them and what is most 
beneficial for us.
    Mr. Olson. Captain Starks?
    Mr. Starks. What Mr. Reyes said, we have a ten-digit non-
emergency number but getting that number in people's heads is 
very, very tough and 9-1-1 is just so much easier to remember. 
The county has started a 3-1-1 line. It is separate from our 
emergency call center and it is a very deliberate process, but 
what Mr. Reyes said at the beginning, if you think you have an 
emergency that message is given and it directs people to the 9-
1-1.
    Mr. Olson. I am about out of time. I have one question 
remaining about the Anti-Swatting Act and this is for all three 
witnesses, a simple yes or no answer. I just want to ensure 
that H.R. 6003, the Anti-Swatting Act, has no effect on my 
Houston Astros swatting the heck out of the American League 
rivals and National League champion in regard to our repeat of 
the World Series.
    Does this affect my Houston Astros swatting the National 
League and the American League?
    Mr. Reyes. No.
    Mr. Curry. I would think not.
    Mr. Starks. No, sir.
    Mr. Olson. There you go. That is what I want to hear. I 
yield back.
    Mr. Lance. Your time is expired, Mr. Olson.
    Mr. Engel, you are recognized.
    Mr. Engel. Thank you. And let me tell my friend and 
colleague Mr. Olson that the Bill 6003, the Anti-Swatting Act, 
is my bill and you don't have to worry. The New York Yankees 
are going to swat all the other teams.
    Mr. Olson. Repeat, repeat.
    Mr. Engel. So thank you, Chairman Lance and Ranking Member 
Doyle, for holding today's hearing and including my bill, the 
Anti-Swatting Act, 6003. And I want to thank Yvette Clarke for 
highlighting some of the things of that bill.
    According to the FBI, a single SWAT team deployment can 
cost thousands of taxpayers' dollars. It obviously wastes law 
enforcement's time which prevents them from responding to real 
emergencies. And most importantly, it risks injury to 
unassuming victims as well as to the officials who mount a 
response.
    One of the most tragic examples took place last December in 
Wichita, Kansas where officers shot and killed an unarmed 28-
year-old man on his front doorstep after receiving a phony call 
alleging an ongoing crime. This is a very serious problem and 
that is why we introduce this bill to address it.
    My bill would expand on the Truth in Caller ID Act that 
Chairman Emeritus Joe Barton and I introduced and it signed 
into law in 2010. In last Congress my Anti-swatting Act was 
amended and favorably reported out of our committee but it did 
not come up for a vote on the floor. So we have a real 
opportunity now.
    The current version of my bill includes the amendments we 
passed last Congress and in short my Anti-swatting Act would 
increase penalties for people who falsify their caller ID 
information to mislead law enforcement. This technological 
trick called spoofing allows swatters to hide their identity by 
making law enforcement believe that they are calling in an 
emergency from a different phone booth, phone number, a phone 
number or location. The bill would also force swatters to 
reimburse emergency service entities for the resources they 
spend responding to the invented emergency.
    So I would like to ask Captain Starks or anybody else who 
would care to answer, when law enforcement receives a swatting 
call you obviously don't know when you have received it that it 
is a phony, that is it a fake. Can you explain how law 
enforcement responds to such a call?
    Mr. Starks. Sure. The people in the 9-1-1 center have to 
begin vetting some of the details of that call as they are 
being dispatched to the first responders. Usually a swatting 
call has some details regarding violence where the caller 
states maybe he or she has already shot someone, is there with 
a higher powered weapon, that kind of thing, someone else is in 
danger.
    So that activates not only the first cops on the street 
responding but also tactical units, negotiators who come, and 
then fire and rescue services who have to come by and respond 
to treat who may be injured there and who may become injured 
there as well. So it is wave after wave after wave of affecting 
public safety.
    Mr. Engel. You know, it is really a sick thing, you know, 
you wonder what kind of a fool would do something like this. It 
is absolutely mind-boggling with total, you know, to play a 
joke or to get a kick out of something to really put people's 
lives in jeopardy. It is just absolutely disgraceful. Swatting 
incidents have profound impacts on families too, I am sure you 
would agree with that.
    Mr. Starks. Absolutely.
    Mr. Engel. My bill calls for increased penalties for 
swatting including up to 20 years where the emergency response 
results in serious bodily injury. Violators would also be 
required to reimburse law enforcement entities for their 
expenses, which is another thing in responding to the hoax. In 
your opinion will that help?
    Mr. Starks. Yes, it will.
    Mr. Engel. OK. Thank you very much and thank you for the 
good work you do. I don't know if Mr. Reyes or Mr. Curry have 
any comments.
    Mr. Reyes. The only thing I would add to what we all have 
discussed here on the swatting thing is something that is often 
overlooked is that oftentimes these could be diverted actions 
to divert law enforcement attention from perhaps another real-
life crime that is going to be taking place like a bank robbery 
for example.
    So that is one of the things. And then on a much bigger 
scale I don't think we should minimize the importance that this 
plays to homeland security issues around the country. What if 
this is just some rehearsals for these would-be homeland 
terrorists that are just seeing how responders are going to be 
responding so that they can then prepare for a larger, real-
life attack?
    Mr. Engel. Well, two very good points. Thank you and thank 
all three of you. We appreciate it.
    Thank you, Mr. Chairman.
    Mr. Lance. Thank you very much. The chair recognizes Mr. 
Bilirakis.
    Mr. Bilirakis. Thank you, Mr. Chairman, I appreciate it and 
I welcome the witnesses. Thank you for their testimony. I was 
actually downstairs at the hearing so we have two going on at 
once. I also want to acknowledge my constituent, a paramedic 
Maya Daniels, who was recognized as a local, first responder of 
the year for going above and beyond. Thank you for your 
service, gentlemen, I appreciate it so very much.
    Moving on to questions, I want to address an issue related 
to the Anti-swatting Act. I know this has been discussed but I 
have a specific question here, which is impacting of course our 
general population. The number of scam calls to Americans has 
increased from about four percent of the calls in 2017 to about 
29 percent this year, and now a new report from First Orion 
projects a 45 percent of all sale calls will be from scammers 
in 2019. It is unacceptable. It is just awful.
    My question is for both of you. Are you seeing significant 
increases in fake emergency calls to your public safety systems 
or non-emergency response lines regardless of whether they are 
purposeful swatting calls or spoof calls and will the bills 
being discussed today protect against these threats?
    And we will start with Mr. Curry if that is OK.
    Mr. Curry. I don't have any empirical data. I can say 
anecdotally they are on the increase. I have been in this 
particular business for a couple of years now and as I said, I 
think we had one just a few months ago an actual swatting call. 
So again I would say that they are on the rise, but again I 
don't have the data to back it up.
    Mr. Bilirakis. And what about the bills that are being 
discussed today? Will they make a difference?
    Mr. Curry. I hope so.
    Mr. Bilirakis. In your opinion?
    Mr. Curry. I would hope that they would.
    Mr. Bilirakis. OK, very good. Anyone else want to touch 
that, any questions?
    Mr. Reyes. So just like Mr. Curry I don't have any 
empirical data either, but they are definitely steady in our 
municipality. While they may not be on the increase they are 
definitely constant. So that is one of the things.
    The three bills that we are talking about here today I 
think will have a significant positive impact on the job that 
we do every single day.
    Mr. Bilirakis. Good, good, good. And again if you have any 
input on how we can improve in addition to those three bills, 
please don't hesitate to--I guess it is Mr. Starks?
    Mr. Starks. Just to echo what has been said is that this 
legislation, I think Mr. Pallone in his statement said this 
will also help keep first responders safer. And if first 
responders are safer to include call takers and dispatchers 
then we can do our job better in protecting the public.
    Mr. Bilirakis. Very good, thank you.
    Mr. Curry, in your testimony you mentioned that finding a 
caller's location is determined through manual entries and 
interrogation. Do you have any estimate on how long it 
typically takes to get an accurate emergency location, or worse 
are there situations where a location cannot be identified and 
can you explain how the Next Generation 9-1-1 will help bring 
down these numbers?
    Mr. Curry. If there is any delay at all that is a problem 
because seconds count. So if it is just a couple of seconds to 
locate where the caller is that is an issue.
    The other problem is, I had mentioned that, you know, we 
have a major interstate. People call 9-1-1 because again that 
is the universal number to call and they are moving. So as they 
are moving we are still trying to track their location which is 
very difficult and it has to be done by through manual entry 
and again as I mentioned through interrogation. We get a lot of 
transient traffic and they just don't know where they are. I 
couldn't tell you how long it takes on an average, but the Next 
Gen 9-1-1 and some of this other software I had mentioned 
before would actually put the person's location within, I want 
to say about three meters. And it would do it quickly and 
continuously.
    Mr. Bilirakis. Very good, thank you. And again thank you 
for your service, appreciate it. Thanks for putting your lives 
on the line to protect us and we need to be as helpful as we 
possibly can. Thank you. I yield back.
    Mr. Lance. Thank you very much. The chair recognizes Mr. 
Johnson for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman. And I too want to 
thank you gentlemen for your service. Thanks for being here 
today.
    Mr. Reyes and Captain Starks, shifting gears just a little 
bit, what are some of the most extreme or alarming 
circumstances where someone called 9-1-1 where they should have 
called a non-emergency number? Do you have any examples?
    Mr. Reyes, you can go first.
    Mr. Reyes. Well, when I was in Alexandria the most extreme 
call that I recall was a resident who called asking for a medic 
unit because they had run out of aspirin and they wanted an 
ambulance to take them to the hospital.
    Mr. Johnson. They had run out of aspirin.
    Mr. Reyes. And they used 9-1-1 for that. So that is an 
extreme example that I can give you.
    Mr. Johnson. Yes.
    Mr. Reyes. And that happens pretty regularly across centers 
across America.
    Mr. Johnson. Captain Starks?
    Mr. Starks. Generally the abuse is calls for normal county 
or government services for like snow or leaves or just they are 
using it as 4-1-1, so like asking questions instead of needing 
emergency services right away. There is a finite number of 9-1-
1 lines in any emergency center and in that case that line is 
being held up not being able to be used for any incoming 
emergency.
    Mr. Johnson. OK. Have you noticed a higher number of these 
calls coming from out-of-state travelers, any correlation 
there?
    Mr. Reyes. You mean the calls that come into 9-1-1 that 
should not be?
    Mr. Johnson. Yes. That should go to a non-emergency number.
    Mr. Reyes. Yes, so just like Mr. Curry we have a major 
interstate running through our county, I-95, and that generates 
a lot of traffic, as well as a large shopping complex known as 
Potomac Mills and that generates a lot of visitors and tourists 
as well. And just like Captain Stark has indicated, oftentimes 
rather than look for the ten-digit emergency number quite 
frankly not even knowing what municipality they are in, 
everyone knows that the universal number that is always going 
to get answered no matter what square foot in America you are 
in is going to be 9-1-1. So that seems to be the default number 
when people have a question and don't know who to ask.
    Mr. Johnson. Do you think they knew to call a non-emergency 
number but just didn't have or know-how to locate the non-
emergency number and do you think they would have called it if 
we had a nationwide standardized non-emergency number, do you 
think that would have helped?
    Mr. Reyes. I can only suspect yes, because I mean some of 
the calls that we receive that are clearly non-emergency that 
come into the emergency line are just at the common sense 
perspective that person should have clearly known not to dial 
9-1-1, but yet they are asking for directions to wherever they 
are trying to go. And so they know that the de facto number 
that is always going to get answered is 9-1-1.
    Mr. Johnson. OK. Captain Starks?
    Mr. Starks. I would just echo the same for the sake of 
time.
    Mr. Johnson. OK. Continuing on this same thought, one 
potential criticism of a broader uniform non-emergency mobile 
number is the consumer education that would have to take place 
to inform citizens of its existence. Some states have already 
got such a number and so that creates a potentially even 
greater need to standardize the process so that someone driving 
from one state to the next doesn't have to worry about knowing 
multiple numbers across the nation.
    What are some of the benefits, gentlemen, of having a 
nationwide non-emergency number like that?
    Mr. Reyes. Well, I will start. And again it would be to 
take that unnecessary and unjustified volume of calls that come 
into 9-1-1 to a dedicated number. But again just like all these 
very successful campaigns that we have used like Buckle Up, 
things like that where we teach children and start teaching at 
a very young age and start teaching our residents the 
importance of the number, then we can start focusing on a 
number.
    But like Mr. Curry said, in one state there could be three, 
up to three 3-digit numbers and so the citizens get confused 
and don't know which one to call, number one, or for what type 
of event to use that number for.
    Mr. Johnson. And do either one of you gentlemen want to--
anything more to add to that?
    Mr. Starks. I just believe that, in the '70s we went to the 
9-1-1 system and we didn't have any type of resources like we 
have now to communicate campaigns like the internet and social 
media and that type of thing. It is about, I think, education 
and changing the culture. It has been in my career of 30 years, 
just the way drunk driving is viewed now in this country that 
has changed, it is just taking a while. The same thing can 
happen, but I think a lot quicker with a standardized non-
emergency number.
    Mr. Johnson. OK, all right.
    Mr. Chairman, I yield back.
    Mr. Lance. Thank you very much, Mr. Johnson. The chair 
recognizes Mrs. Brooks.
    Mrs. Brooks. Thank you, Mr. Chair. I want to continue on 
this line of question about the bill that I introduced 
regarding non-emergency numbers. And I want to ask you, Captain 
Starks, you talked about in your career you have seen how 9-1-1 
has become so successful. Do you have examples of how the 
public does have a good understanding of the use of non-
emergency numbers in some of the states that do have it?
    Mr. Starks. I don't have any examples from out of state. I 
think that within my jurisdiction, Montgomery County, there is 
some understanding, but I think there is a great deal of 
confusion and just ignorance or lack of knowledge in regarding 
this ten-digit non-emergency number that we employ.
    Mrs. Brooks. And so would it be fair to say that you would 
like to see a shorter number that because so many people go 
from one community to another in the area that you represent, 
if we had a very simple three-digit number wouldn't that be 
incredibly advantageous?
    Mr. Starks. It sure would be in the first look. But Mr. 
Reyes also spoke earlier of just cautionary about making sure 
that funding and staffing is there because it is going to cause 
an increase of calls to the center. But yes, a uniform number 
would be helpful.
    Mrs. Brooks. And, Mr. Reyes, going back, and I appreciate--
I visited my PSAP in Indiana in Hamilton County and certainly 
appreciate what the concern is about resources. But do we have 
any data from the 9-1-1 from the PSAPs how many calls right now 
come in that are non-emergency versus emergency?
    Mr. Reyes. Yes, ma'am. During my opening remarks I gave 
that statistic for our agency and our organization receives 
more non-emergency calls than emergency calls. Overall, we are 
at 400,000 calls total and of those 400,000 some 254,000 were 
non-emergency.
    Mrs. Brooks. And so would you agree that if there were 
resources as well as a public education campaign much like what 
we have done and I think it is much easier now because of 
social media and other and smart phones to be able to 
communicate what that number would be if a person wanted to use 
a non-emergency number.
    Mr. Reyes. Yes.
    Mr. Curry. If you don't mind, if I could just add to that?
    Mrs. Brooks. Please.
    Mr. Curry. In Hunterdon County where I live, my post office 
isn't even in my county so we have postal mailing addresses 
that expand way beyond where you think you may live. In 
addition to that about one-third of our county is covered by 
the state police and that is three different state police 
barracks. People don't know who their police agencies are, let 
alone know the number to call for a non-emergency.
    So I know we have talked about the nationwide scale, but 
for me it is more important on a local level.
    Mrs. Brooks. So it is even a local, not just the traveling 
because I have been told if a person were driving we have no 
fewer than 18 different abbreviated short codes across 29 
states and if a person were driving across Highway 95 they 
would even see ten different dialing codes.
    Mr. Curry. Yes.
    Mrs. Brooks. And so it is impossible for just a citizen to 
be driving even on our interstate system and know who to call 
if they saw a tree down or a dead deer along the side of the 
road. Things that might not be a true emergency and yet the 9-
1-1 operators and folks, dispatchers rather, that I am speaking 
with are very concerned about making sure they have the time 
and the bandwidth to handle the true emergency calls because 
those are the ones that really deserve their attention. 
Wouldn't you agree?
    Mr. Curry. Yes.
    Mrs. Brooks. And do we have many situations documented of 
people being on hold for 9-1-1 for quite some time when they 
have true emergencies? Do we have that documented as well?
    Mr. Reyes. We don't document that in our jurisdiction.
    Mr. Starks. I don't have the data, but I know that it has 
occurred within Montgomery County.
    Mrs. Brooks. And how about you, Mr. Curry?
    Mr. Curry. This past early spring, late winter we had two 
storms come through, Quinn and Riley, and the way our 9-1-1 
system works is if it doesn't get answered in one PSAP it goes 
to the next and it bounces. And during one particular storm we 
received over 200 9-1-1 calls from the previous county and even 
a handful of calls from two counties before that. A lot of 
those calls were just that--my power is out.
    Mrs. Brooks. OK. And so therefore your dispatchers are 
taking all those calls in, whereas if someone had a horrific 
wreck or something during that storm they could have been on 
hold.
    Mr. Curry. Correct. And some of those were emergencies that 
we were getting those redundant calls from.
    Mrs. Brooks. OK, thank you. Appreciate it and yield back.
    Mr. Lance. Thank you, Mrs. Brooks.
    Seeing there are no further members wishing to ask 
questions for the panel, I thank our witnesses for being here 
today. Before we conclude, I ask unanimous consent to enter the 
following documents into the record: The letter from Hunterdon 
County Freeholders in support of H.R. 6424; an article on 9-1-1 
fee diversion in New Jersey; and an article from the New York 
Times offered by Mr. Doyle.
    Pursuant to committee rules, I remind members that they 
have 10 business days to submit additional questions for the 
record and I ask that witnesses submit their responses within 
10 business days upon receipt of the questions.
    Seeing no further business before the subcommittee today, 
without objection, the subcommittee is adjourned.
    [Whereupon, at 12:04 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                Prepared statement of Hon. Anna G. Eshoo

    Madame Chairwoman, thank you for holding this hearing 
today. It comes at a time when werecall the public safety 
lessons we learned when our country was attacked seventeen 
years ago. At the same time, in the midst of another hurricane 
season we are aware that we must be proactive to ensure the 
ongoing integrity of our public safety networks.
    I believe the bills before the Committee today will bolster 
America's public safety communications networks, and I'm proud 
to be an original cosponsor of two of them.
    The `9-1-1 Fee Integrity Act' ensures that states use 9-1-1 
fees charged to consumers intended to improve 9-1-1 emergency 
communications systems for that purpose and that purpose only. 
Our 9-1-1 call centers are the first point of contact in 
emergency situations, but many of these call centers rely on 
technology that's been in place since the time of the first 9- 
1-1 call 50 years ago. 9-1-1 fees collected by states should 
only be used to upgrade our 9-1-1 infrastructure, not diverted 
to the general coffers of state governments. It's our 
responsibility to make sure our constituents' dollars are being 
used as intended--especially when it comes to keeping them 
safe.
    The second bill is the other side of the same public safety 
coin and I'm also pleased to partner with Representative Brooks 
as an original cosponsor of the `National Non- Emergency Number 
Act'. Often when drivers see a fellow traveler in need of 
assistance, or another issue of concern, they aren't sure how 
to help, so they default to calling 911. This can have the 
unfortunate effect of diverting much-needed emergency resources 
to important but non-dire situations. This bill provides the 
dual benefit of streamlining travelers' access to assistance 
when they need it, while allowing emergency workers to focus on 
urgent matters when lives are on the line, reducing traveler 
confusion and hastening response times across the board.
    Thank you again for bringing these bipartisan bills before 
the Committee today. I encourage the Committee to continue 
moving this legislation forward in a timely manner because 
together, these bills can further our collective goal of more 
efficient, reliable, and cost-effective safety services for all 
Americans.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
